        EVALUATION REPORT

         Independent Evaluation of NRC’s Implementation
        of the Federal Information Security Management Act
                   (FISMA) for Fiscal Year 2012


                   OIG-13-A-03      November 8, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                           Independent Evaluation of
                          NRC’s Implementation of the
                 Federal Information Security Management Act
                              for Fiscal Year 2012




                                Contract Number: GS-00F-0001N
                                 Delivery Order Number: 20291

                                                   November 7, 2012




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                           Independent Evaluation of
                                                            NRC’s Implementation of FISMA for FY 2012


EXECUTIVE SUMMARY


BACKGROUND

      The U.S. Nuclear Regulatory Commission (NRC) Office of the Inspector General (OIG)
      retained Richard S. Carson & Associates, Inc. (Carson Associates), to perform an
      independent evaluation of NRC’s implementation of the Federal Information Security
      Management Act (FISMA) for fiscal year (FY) 2012. This report presents the results of
      that independent evaluation. Carson Associates also submitted responses to the Office of
      Management and Budget’s (OMB) annual FISMA reporting questions for OIGs via
      OMB’s automated collection tool.

OBJECTIVE

      The objective of this review was to perform an independent evaluation of NRC’s
      implementation of FISMA for FY 2012.

RESULTS IN BRIEF

      Program Enhancements and Improvements

      NRC has continued to make improvements to its information technology (IT) security
      program and progress in implementing the recommendations resulting from previous
      FISMA evaluations. The agency has accomplished the following since the FY 2011
      FISMA independent evaluation:

             The agency continued to maintain current authorizations to operate for all agency
             and contractor systems. In FY 2012, the agency completed security assessments
             and authorizations of eight systems. As of the completion of fieldwork for FY
             2012, all 20 operational NRC information systems and both systems used or
             operated by a contractor or other organization on behalf of the agency had a
             current authorization to operate.
             The agency completed or updated security plans for all agency and contractor
             systems.
             The agency completed annual security control testing for 16 agency systems and
             both contractor systems. Two agency systems are currently undergoing security
             test and evaluation in support of system reauthorization. The remaining two
             systems completed annual security control testing late in FY 2011 and are
             currently undergoing FY 2013 annual security control testing.
             The agency completed annual contingency plan testing for all agency contractor
             systems, and updated the contingency plans for 18 agency systems and both
             contractor systems.




                                              i
                                                                        Independent Evaluation of
                                                         NRC’s Implementation of FISMA for FY 2012


            The agency issued several updated Computer Security Office documents,
            processes, and standards, including the NRC Information Security Program Plan,
            Continuity of Operations Plan, and several incident response documents.

     Program Weaknesses

     While the agency has continued to make improvements in its IT security program and has
     made progress in implementing the recommendations resulting from previous FISMA
     evaluations, the independent evaluation identified the following information system
     security program weaknesses.

            The NRC system inventory is not up-to-date.
            Information system component inventories at NRC remote locations are not up-
            to-date.
            The NRC plan of action and milestone (POA&M) process is not consistently
            followed.
            The NRC POA&M tool does not consistently implement key OMB and NRC
            POA&M requirements.
            Contingency planning for the NRC IT environment needs improvement.

RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s information system security program and implementation of FISMA. A
     consolidated list of recommendations appears on page 15 of this report.

AGENCY COMMENTS

     At an exit conference on November 1, 2012, agency officials agreed with the report’s
     findings and recommendations. Subsequent to the exit conference, the agency provided
     informal comments, which the OIG incorporated as appropriate. The agency opted not to
     submit formal comments.




                                            ii
                                                                         Independent Evaluation of
                                                          NRC’s Implementation of FISMA for FY 2012


ABBREVIATIONS AND ACRONYMS


Carson Associates   Richard S. Carson and Associates, Inc.
COOP                Continuity of Operations Plan
CSO                 Computer Security Office
FISMA               Federal Information Security Management Act
FY                  Fiscal Year
ISCP                Information System Contingency Plan
IT                  Information Technology
NIST                National Institute of Standards and Technology
NRC                 Nuclear Regulatory Commission
NSICD               NRC System Information Control Database
OIG                 Office of the Inspector General
OIS                 Office of Information Services
OMB                 Office of Management and Budget
POA&M               plan of action and milestones
SP                  Special Publication




                                            iii
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2012




[Page intentionally left blank]




              iv
                                                                                                              Independent Evaluation of
                                                                                               NRC’s Implementation of FISMA for FY 2012


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ..................................................................................... iii

1 Background .............................................................................................................. 1
2 Objective ................................................................................................................... 1
3 Findings .................................................................................................................... 2
  3.1 FISMA Systems Inventory .............................................................................. 2
            Finding #1: NRC System Inventory Is Not Up-to-Date............................................................... 3



    3.2     Configuration Management ............................................................................ 5
            FINDING #2: Information System Component Inventories at NRC Remote Locations Are
               Not Up-To-Date ................................................................................................................... 5



    3.3     Plan of Action and Milestones (POA&M) ....................................................... 7
            Finding #3: NRC POA&M Process Is Not Consistently Followed ............................................. 7



            Finding #4: POA&M Tool Does Not Consistency Implement Key OMB and NRC POA&M
                Requirements........................................................................................................................ 9
    3.4     Contingency Planning .................................................................................. 10


            FINDING #5: Contingency Planning for the NRC IT Environment Needs Improvement ........ 11
4 Consolidated List of Recommendations ............................................................. 15
5 Agency Comments ................................................................................................ 17


Appendix.                 OBJECTIVE, SCOPE, AND METHODOLOGY ............................................ 19




                                                                        v
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2012




[Page intentionally left blank]




              vi
                                                                                         Independent Evaluation of
                                                                          NRC’s Implementation of FISMA for FY 2012


1       Background

On December 17, 2002, the President signed the E-Government Act of 2002, which included the
Federal Information Security Management Act (FISMA) of 2002.1 FISMA outlines the
information security management requirements for agencies, which include an annual
independent evaluation of an agency’s information security program2 and practices to determine
their effectiveness. This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s information
systems. The evaluation also must include an assessment of compliance with FISMA
requirements and related information security policies, procedures, standards, and guidelines.
FISMA requires the annual evaluation to be performed by the agency’s Office of the Inspector
General (OIG) or by an independent external auditor.3 Office of Management and Budget
(OMB) memorandum M-12-20, FY 2012 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, dated October 2, 2012, requires
OIG to report their responses to OMB’s annual FISMA reporting questions for OIGs via an
automated collection tool.

The U.S. Nuclear Regulatory Commission (NRC) OIG retained Richard S. Carson & Associates,
Inc. (Carson Associates), to perform an independent evaluation of NRC’s implementation of
FISMA for fiscal year (FY) 2012. This report presents the results of that independent evaluation.
Carson Associates also submitted responses to OMB’s annual FISMA reporting questions for
OIGs via OMB’s automated collection tool. A consolidated list of recommendations appears on
page 15.

2       Objective

The objective of this review was to perform an independent evaluation of NRC’s implementation
of FISMA for FY 2012. The report appendix contains a description of the evaluation objective,
scope, and methodology.




1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the
  E-Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
  which expired in November 2002.
2
  NRC uses the term “information security program” to describe its program for ensuring that various types of
  sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
  pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
  organizations. For the purposes of FISMA, the agency uses the term information technology (IT) security
  program.
3
  While FISMA uses the language “independent external auditor,” OMB Memorandum M-04-25, FY 2004
  Reporting Instructions for the Federal Information Security Management Act, clarified this requirement by stating,
  “Within the context of FISMA, an audit is not contemplated. By requiring an evaluation but not an audit, FISMA
  intended to provide Inspectors General some flexibility.…”


                                                         1
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2012


3      Findings

NRC has continued to make improvements to its information technology (IT) security program
and progress in implementing the recommendations resulting from previous FISMA evaluations.
The agency has accomplished the following since the FY 2011 FISMA independent evaluation:

       The agency continued to maintain current authorizations to operate for all agency and
       contractor systems. In FY 2012, the agency completed security assessments and
       authorizations of eight systems. As of the completion of fieldwork for FY 2012, all 20
       operational NRC information systems and both systems used or operated by a contractor
       or other organization on behalf of the agency had a current authorization to operate.
       The agency completed or updated security plans for all agency and contractor systems.
       The agency completed annual security control testing for 16 agency systems and both
       contractor systems. Two agency systems are currently undergoing security test and
       evaluation in support of system reauthorization. The remaining two systems completed
       annual security control testing late in FY 2011 and are currently undergoing FY 2013
       annual security control testing.
       The agency completed annual contingency plan testing for all agency contractor systems,
       and updated the contingency plans for 18 agency systems and both contractor systems.
       The agency issued several updated Computer Security Office documents, processes, and
       standards, including the NRC Information Security Program Plan, Continuity of
       Operations Plan, and several incident response documents.

While the agency has continued to make improvements in its IT security program and has made
progress in implementing the recommendations resulting from previous FISMA evaluations, the
independent evaluation identified the following information system security program
weaknesses.

       The NRC system inventory is not up-to-date.
       Information system component inventories at NRC remote locations are not up-to-date.
       The NRC plan of action and milestone (POA&M) process is not consistently followed.
       The NRC POA&M tool does not consistently implement key OMB and NRC POA&M
       requirements.
       Contingency planning for the NRC IT environment needs improvement.

3.1    FISMA Systems Inventory

FISMA and the National Institute of Standards and Technology (NIST) define the requirements
for developing and maintaining an inventory of its information systems. To address findings
from previous independent evaluations regarding the agency’s inventory, the agency developed
an automated inventory system, the NRC System Information Control Database (NSICD), to
house the inventory of automated information systems. The agency also developed procedures,
guides, and user manuals that provide guidance for maintaining system inventory records within



                                               2
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2012


NSICD. However, the evaluation team found that despite these procedures, guides, and user
manuals, the agency’s system inventory is not up-to-date.

Finding #1: NRC System Inventory Is Not Up-to-Date

In response to recommendations from previous independent evaluations, the agency developed
an automated inventory system and developed procedures, guides, and user manuals that provide
guidance for maintaining system inventory records within that system. These procedures, guides
and user manuals describe the system inventory process, the basic requirements for entering new
system inventory data into NSICD, the methodology for entering data into security records
within NSICD, and instructions on working with system inventory and security program
information in ClearQuest. The agency also provides inventory instructions with its biannual
inventory update data call. However, despite all of these instructions, the NRC system inventory
is not up-to-date.

3.1.1 NRC Inventory Requirements

NRC has several procedures, guide, and user manuals that provide guidance for maintaining
system inventory records within NSICD. These include:

       OIS-9000D-0002, Revision 0; Entering New System Inventory Data in the NRC System
       Information Control Database (NSICD), June 4, 2007 – describes the basic requirements
       for entering new system inventory data into NSICD.
       Administrative Guide for Entering Data Into the NSICD Security Record, Version 1.4,
       June 22, 2012 – describes the methodology for entering data into security records within
       NSICD.
       NSICD User Guide – Using Rational ClearQuest, March 2, 2011 – describes the system
       inventory process and provides instructions on working with system inventory and
       security program information in ClearQuest.

The agency also provides inventory instructions with its biannual inventory update data call, as
described in OIS-9000D-0001, Biannual Automated Information System Inventory Update
Procedure, dated March 5, 2007. Twice a year (typically in January and August), the agency
sends out a request to update the information contained in NSICD for automated information
systems used by each NRC office.

Several organizations are responsible for maintaining system inventory records within NSICD.
According to OIS-9000D-0002, the Enterprise Architecture team is responsible for adding any
new system to the system inventory records in NSICD and the Computer Security Team should
notify the system inventory maintainer if documentation is submitted for a system that cannot be
identified within the system inventory records of NSICD. The Administrative Guide for Entering
Data Into the NSICD Security Record states that data to be entered into the security record comes
from the security documents submitted to the Computer Security Office (CSO) and from the
documents created by the CSO. The NSICD User Guide states that system owners notify the
Office of Information Services (OIS) of changes in the system inventory, in coordination with



                                                3
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2012


the Office of the Chief Financial Officer, through the biannual data calls as part of the
capitalization of hardware and software.

3.1.2 Agency Procedures Are Not Followed

Carson Associates is also conducting information security risk evaluations of NRC remote
locations (i.e., those NRC offices located outside of the NRC headquarters complex). During
site visits to three of the remote locations, the evaluation team compared the agency’s inventory
data from NSICD with the systems actually in place in those locations. The evaluation team
found that not all systems in place at NRC remote locations are reflected in NSICD.

For example, a laptop system in one of the remote locations, which was authorized to operate
December 1, 2011, is not reflected in NSICD. Authorization of this system to operate should
have alerted some organization to enter this system into NSICD, but it is unclear which
organization has that responsibility. For example, OIS-9000D-0002 states that new systems are
initiated by submitting a screening form for a capital planning investment control review.
However, laptop systems typically do not require such a review. In addition, instructions
included with the biannual inventory update data call only ask system owners to update
information extracted from NSICD. The instructions do not include a requirement to notify the
agency of any new systems that are not reflected in the data call.

Two of the other remote locations also had some laptops used for processing safeguards
information that were no longer used, but had yet to be surplused. These locations were unaware
that the agency was still tracking them as active systems in the agency’s official inventory as
they were not included in the data provided to those locations in the biannual inventory update
data call. According to the agency, they perform data calls on IT systems that are part of its
portfolio of systems. The agency does not ordinarily perform a data call on independent
standalone hardware, even if the hardware is used as a sensitive processor and has an NSICD
system inventory numbers. The agency considers standalone hardware as assets, not systems.
Therefore, NRC remote locations were not aware they needed to provide the agency with
updated information regarding the status of these laptops or that they were required to follow a
specific process for decommissioning these systems.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   1. Update all procedures, guides, and user manuals that provide guidance for maintaining
      system inventory records within NSICD to clearly define which organization(s) are
      responsible for adding new system inventory records in NSICD.
   2. Update the instructions included with the biannual inventory update to require system
      owners to notify the agency of any new systems that are not reflected in the data call.
   3. Include all systems in NSICD, including all independent standalone hardware that has an
      NSICD system inventory number, in future biannual inventory update data calls.




                                                  4
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2012


3.2    Configuration Management

NIST defines requirements for developing, documenting, and maintaining an inventory of
information system components as part of configuration management for a system. While
information system component inventories exist for individual NRC systems, there are no up-to-
date consolidated inventories for the components of these systems located in the remote
locations, associated rack diagrams are not up-to-date, and the inventories that do exist do not
meet NRC requirements.

FINDING #2: Information System Component Inventories at NRC Remote Locations Are
Not Up-To-Date

In addition to headquarters, NRC has remote locations that conduct inspection, enforcement,
investigation, licensing, and emergency response programs for nuclear reactors, fuel facilities,
and materials licensees. NRC also has a remote location that provides training to meet the
integrated NRC staff needs in the curriculum areas of reactor technology, probabilistic risk
assessment, engineering support, radiation protection, fuel cycle, security and safeguards, and
regulatory skills. These remote locations house IT system components from multiple NRC
systems, including infrastructure and the badging system, as well as NRC-managed systems that
support the remote location. One of the remote locations also houses IT system components
supporting the NRC Continuity of Operations Plan (COOP) and IT system components that
provide disaster recovery support for some NRC systems and another remote location also
houses IT system components that provide disaster recovery support for some NRC systems.

During site visits to three NRC remote locations, the evaluation team found that while
information system component inventories exist for individual NRC systems, there are no up-to-
date consolidated inventories for the components of these systems located in the remote
locations, associated rack diagrams are not up-to-date, and the inventories do not meet NRC
requirements.

3.2.1 Requirements for Inventory of System Components

NIST Special Publication (SP) 800-53, Recommended Security Controls for Federal Information
Systems and Organizations, requires organizations develop, document, and maintain an
inventory of information system components. NIST SP 800-53 also requires organizations to
update the inventory of information system components as an integral part of component
installations, removals, and information system updates.

CSO-STD-0020, Organization Defined Values for System Security Controls, requires component
inventories to include the following elements:

       System Name.
       Asset Name.
       Asset Type (e.g., firewall, server, workstation, etc.).
       Manufacturer.



                                                  5
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2012


       Manufacturer Model Number / Version.
       Manufacturer Serial Number.
       Asset Tag (if owned/leased by NRC).
       Unique Host Name (if available the host’s fully qualified domain name should be used).
       Location (e.g., site, building, and room where the asset is located).
       Operating System Name.
       Operating System Version.
       Licensing Information.
       License Expiration Date.

3.2.2 Agency Has Not Fully Met Requirements

IT system components located in NRC remote locations are managed by multiple organizations
and support multiple NRC systems. Even though these components are not all managed by NRC
staff at that location, it is important that NRC remote locations have information on these
components to easily locate and identify them in the event of a security incident or emergency.

During site visits to three NRC remote locations, the evaluation team compared inventory
information and rack diagrams provided by NRC staff at these locations with the actual IT
system components located in their server rooms and telecommunications closets. In each of the
three remote locations, the evaluation team found that the inventory information provided did not
accurately reflect all the IT system components in these locations. The evaluation team also
found that the rack diagrams were not up-to-date and were missing IT system components
recently added to the location. The team also found that the inventories did not include all data
elements specified in CSO-STD-0020.

NIST SP 800-53 requires organizations to update the inventory of information system
components as an integral part of component installations, removals, and information system
updates. However, NRC has not clearly identified who is responsible for performing these
activities in situations where IT system components for multiple NRC systems are located in a
single location such as an NRC remote location. For example, should the agency detect unusual
network activity originating from a particular network address, it would be important to have a
comprehensive and up-to-date inventory of all IT system components’ network addresses so the
staff at the remote location can quickly identify, locate, and isolate the IT system component
involved. However, no one has taken ownership of this responsibility, resulting in the outdated
information.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   4. Assign responsibility for ensuring each NRC remote location maintains a consolidated
      inventory of all the IT system components located in that location, associated rack
      diagrams are kept up-to-date, and the inventory meets NRC requirements.


                                                6
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2012


      5. Create a consolidated inventory that meets NRC requirements of all the IT system
         components located in each NRC remote location.
      6. Update the rack diagrams for each NRC remote location.

3.3      Plan of Action and Milestones (POA&M)

FISMA, OMB, and NIST define the requirements for a POA&M process for planning,
implementing, evaluating, and documenting remedial action to address any deficiencies in the
information security policies, procedures, and practices of the agency. In order to meet these
requirements, NRC developed CSO-PROS-2016, U.S. NRC POA&M Process, and implemented
an automated tool to help manage the agency POA&Ms. CSO-PROS-2016 describes the process
for NRC to identify, assess, prioritize, and monitor the progress of corrective actions pertaining
to security weaknesses and provides agency direction for the management and tracking of
corrective efforts relative to known weaknesses in IT security controls. The automated tool
ensures the agency’s POA&M procedures are implemented consistently, completely, and
accurately. However, the evaluation team found that NRC’s POA&M process is not consistently
followed and the agency’s POA&M tool does not implement key OMB and NRC POA&M
requirements. As a result, NRC’s POA&Ms are not effective at monitoring the progress of
corrective efforts relative to known weaknesses in IT security controls and therefore do not
provide an accurate measure of security program effectiveness.

Finding #3: NRC POA&M Process Is Not Consistently Followed

CSO-PROS-2016 describes the process for NRC to identify, assess, prioritize, and monitor the
progress of corrective actions pertaining to security weaknesses and provides agency direction
for the management and tracking of corrective efforts relative to known weaknesses in IT
security controls. However, the evaluation team found that NRC’s POA&M process is not
consistently followed. As a result, NRC’s POA&Ms are not effective at monitoring the progress
of corrective efforts relative to known weaknesses in IT security controls.

3.3.1 POA&M Process Requirements

CSO-PROS-2016 describes specific requirements for NRC POA&Ms, including the following:

         POA&Ms must be updated to add vulnerabilities as part of an independent assessment
         such as security testing and evaluation, continuous monitoring, vulnerability assessment
         report, security assessment report, security impact assessment, U.S. Government
         Accountability Office report, or OIG report. These weaknesses must be added to the
         POA&M as soon as possible, but not to exceed 60 days from the assessor’s report.
         POA&Ms should be updated within the automated tool by the system owner with the
         most current information by the 15th of November, February, May, and August. System
         owners should keep abreast of weakness mitigation activities to ensure the documented
         status accurately reflects the environment at that particular point in time.
         Once the scheduled completion date is set, it should not be changed.




                                                 7
                                                                             Independent Evaluation of
                                                              NRC’s Implementation of FISMA for FY 2012


Instructions included with the annual IT security risk management activities memorandum,
issued October 14, 2011, required system owners to add three risk management activities and
respective due dates to their systems’ POA&M in the agency information assurance tool and
track them to completion. These activities are annual contingency plan testing, annual security
control testing, and security-related document updates, including annual system security plan
update.

3.3.2 Agency Has Not Fully Met Requirements

The evaluation team reviewed NRC POA&Ms for all four quarters of FY 2012. As in previous
independent evaluations, we found that POA&Ms do not include all known security weaknesses
and POA&Ms are not updated in a timely manner. We also found that scheduled completion
dates are being changed and risk management activities are not added to POA&Ms as required.

POA&Ms Do Not Include All Known Security Weaknesses

CSO-PROS-2016 requires POA&Ms to be updated to add vulnerabilities identified as part of an
independent assessment such as security testing and evaluation, continuous monitoring,
vulnerability assessment report, security assessment report, security impact assessment, U.S.
Government Accountability Office report, or OIG report. These weaknesses must be added to
the POA&M as soon as possible, but not to exceed 60 days from the assessor’s report. However,
the evaluation team found some IT-related weaknesses were not added to the POA&Ms as
required by agency policy.

       Weaknesses identified during the FY 2012 annual security control testing for four
       systems were not added to their respective POA&Ms.
       Recommendations from the FY 2012 contingency plan testing for five systems were not
       added to their respective POA&Ms.
       In July 2011, the OIG issued a report on NRC’s shared “S” drive. None of the five
       recommendations from this report have been added to the appropriate POA&M.

POA&Ms Are Not Updated in a Timely Manner

CSO-PROS-2016 requires POA&Ms to be updated within the automated tool by the system
owner with the most current information by the 15th of November, February, May, and August.
The evaluation team found POA&Ms are not updated in a timely manner. The following are
some examples of updates that are not timely:

       Approximately 24 percent of closed weaknesses were not reported closed in the quarter
       in which they were actually closed.
       Several weaknesses closed by the OIG almost a year ago have not been reported as
       closed on the POA&Ms, including 14 weaknesses from the regional reviews conducted in
       2009.
       Approximately 12 percent of all weaknesses are being reported as on track when in fact
       they are delayed.


                                                8
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2012




Scheduled Completion Dates Are Being Changed

CSO-PROS-2016 states that once the scheduled completion date is set, it should not be changed.
However, the evaluation team found multiple instances of changed scheduled completion dates.
In several instances, the dates were changed during or shortly after the transition from the
manual POA&M process to the new automated tool, or when a previously closed weakness was
reopened. As a result, weaknesses are being reported as on track when in fact they are actually
delayed resulting in inaccurate reporting to OMB.

Risk Management Activities Are Not Added to POA&Ms

Instructions included with the annual IT security risk management activities memorandum
required system owners to add annual contingency plan testing, annual security control testing,
and security-related document updates, including annual system security plan update to their
systems’ POA&Ms. The evaluation team found that these activities were not added to POA&Ms
for 7 of the agency’s 22 systems.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   7. Provide refresher training to all staff responsible for implementing NRC’s POA&M
      process.

Finding #4: POA&M Tool Does Not Consistency Implement Key OMB and NRC POA&M
Requirements

As a result of recommendations from the FY 2007 FISMA independent evaluation, the agency
implemented a tool for automating the POA&M process. The automated tool was put in place to
ensure the agency’s POA&M procedures are implemented consistently, completely, and
accurately. However, the evaluation team found that the agency’s POA&M tool does not
implement key OMB and NRC POA&M requirements. As a result, NRC’s POA&M process is
not consistently implemented.

The following are some key OMB and NRC requirements for POA&M reporting:

       Scheduled completion dates should not be changed.
       All weaknesses should have a scheduled completion date.
       All weaknesses should identify the source of the weakness.
       All closed weaknesses should have an actual completion date.
       Weakness should be reported as delayed once the scheduled completion date has passed.

The evaluation team reviewed NRC POA&Ms for all four quarters of FY 2012 and reviewed the
POA&Ms in the agency’s automated tool. The evaluation team found NRC’s POA&M tool



                                               9
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2012


allows weaknesses to be created that do not follow OMB and NRC POA&M requirements.
Specifically, the tool:

         allows scheduled completion dates to be changed.
         allows weaknesses to be created without a scheduled completion date.
         allows weaknesses to be created with no value in the field that identifies the source of the
         weakness.
         allows a weakness to be closed without specifying an actual completion date.
         does not automatically change the status from on track to delayed once the scheduled
         completion date has passed.

The tool also allows users to enter actual completion dates in the future and allows users to enter
an actual completion date when the status is not closed.

RECOMMENDATION

      The Office of the Inspector General recommends that the Executive Director for Operations:

      8. Configure the agency’s automated POA&M tool to do the following: (i) prevent
         scheduled completion dates from being changed, (ii) prevent weaknesses from being
         created without a scheduled completion date or weakness source, (iii) prevent weaknesses
         from being closed without specifying an actual date closed, (iv) prevent users from
         entering actual completion dates in the future, (v) prevent users from entering an actual
         completion date when the status is not closed, and (vi) automatically change the
         weakness status from on track to delayed once the scheduled completion date has passed.

3.4      Contingency Planning

FISMA and NIST require agencies to develop plans and procedures to ensure continuity of
operations for information systems that support agency operations and assets. NRC has
developed several types of plans that support these requirements, including the NRC COOP and
information system contingency plans (ISCP). The evaluation team found that contingency
planning for the NRC IT environment needs improvement. Specifically, the IT environment
contingency plan does not address contingency events that do not require relocation to an
alternate site, and procedures specific to contingency planning for NRC remote locations are not
up-to-date. In addition, the COOPs for NRC remote locations that are referenced in the IT
environment contingency plan are not current and only address situations where IT environment
components at headquarters are not available.

3.4.1 Background

The NRC IT environment is a general support system that is located throughout NRC’s
headquarters campus buildings as well as at NRC remote locations. One of the remote locations
has been designated as the alternate processing site for the NRC IT environment. The NRC IT
environment is composed of several subsystems, including common computing services and


                                                  10
                                                                               Independent Evaluation of
                                                                NRC’s Implementation of FISMA for FY 2012


network infrastructure services. Common computing services are a client-server computing
environment consisting of those services available to all NRC employees and contractors via the
“NRC Network.” There is one production file server in each NRC remote location as a part of
this subsystem. Network infrastructure services are a distributed enterprise network consisting
of a network infrastructure supporting interconnected subnets. All interconnected subnets
facilitate internal and external office communications for NRC. The infrastructure is composed
of NRC’s headquarters campus local area network, NRC remote locations, and Resident
Inspector sites. The IT environment contingency plan covers all of these components, even those
located at NRC remote locations. The IT environment contingency plan also includes, as
attachments, contingency plans for NRC-managed components located in NRC remote locations.

3.4.2 Contingency Planning Requirements and Definitions

Information system contingency planning normally applies to information systems, and provides
the steps needed to recover the operation of all or part of designated information systems at an
existing or new location in an emergency. Information system contingency planning fits into a
much broader security and emergency management effort that includes organizational and
business process continuity, disaster recovery planning, and incident management.

Organizational mission continuity applies to the mission/business itself; it concerns the ability to
continue critical functions and processes during and after an emergency event. A COOP focuses
on restoring an organization’s mission essential functions at an alternate site and performing
those functions for up to 30 days before returning to normal operations. Minor threats or
disruptions that do not require relocation to an alternate site are typically not addressed in a
COOP.

Disaster recovery plans apply to major, usually physical, disruptions to service that deny access
to the primary facility infrastructure for an extended period. A disaster recovery plan is an
information system-focused plan designed to restore operability of the target system, application,
or computer facility infrastructure at an alternate site after an emergency. It may be supported by
multiple information system contingency plans to address recovery of impacted individual
systems once the alternate facility has been established. It may also support a business
continuity plan or continuity of operations plan by recovering supporting systems for
mission/business processes or mission essential functions at an alternate location.

Disaster recovery plans address only information system disruptions that require relocation.
ISCPs differ from disaster recovery plans in that the ISCP procedures are developed for recovery
of the system regardless of site or location. An ISCP can be activated at the system’s current
location or at an alternate site. The ISCP provides key information needed for system recovery,
including roles and responsibilities, inventory information, assessment procedures, detailed
recovery procedures, and system testing.

FINDING #5: Contingency Planning for the NRC IT Environment Needs Improvement

The evaluation team found that contingency planning for the NRC IT environment needs
improvement. Specifically, the IT environment contingency plan does not address contingency
events that do not require relocation to an alternate site, and procedures specific to contingency


                                                 11
                                                                                Independent Evaluation of
                                                                 NRC’s Implementation of FISMA for FY 2012


planning for NRC remote locations are not up-to-date. In addition, the COOPs for NRC remote
locations that are referenced in the IT environment contingency plan are not current and address
only situations where IT environment components at headquarters are not available.

The NRC IT environment contingency plan provides steps required to recover the operation of
IT environment components at the alternate processing site following a service
disruption/emergency. The IT environment contingency plan does not describe restoring IT
environment components using alternate equipment or performing some or all of the affected
business processes using alternate processing (manual) means (typically acceptable for only
short-term disruptions). For example, the contingency plan does not address contingency events
that last less than 24 hours, such as the failure of a disk drive or power supply, or corruption of a
database.

The evaluation team also found that contingency planning procedures specific to NRC remote
locations are not up-to-date in the following ways:

   1. The list of IT environment servers supporting NRC remote locations found in Appendix
      H of the IT environment contingency plan is not up-to-date.
   2. The contingency plans for NRC remote locations that are attached to the IT environment
      contingency plan are not up-to-date and do not cover all NRC-managed servers in those
      locations. For example, the contingency plans for three NRC remote locations have not
      been updated to reflect the new addresses of locations that have moved in the past few
      years.
   3. The IT environment contingency plan also does not include any contingency procedures
      for the IT environment and other IT components supporting one NRC remote location.

COOPs for NRC remote locations that are referenced in Appendix G of the IT environment
contingency plan are out-of-date and refer only to situations where headquarters is unable to
support IT environment components at the remote locations due to the destruction of the
headquarters facility. These COOPs enable NRC staff in NRC remote locations to continue to
use the enterprise e-mail system, remote access, and the Internet (and Internet E-mail).
However; they do not address situations where the IT environment at an NRC remote location is
unavailable for any reason. The IT environment contingency plan also does not include any
COOP for the IT environment and other IT components supporting one NRC remote location.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   9. Update the IT environment contingency plan to include procedures for responding to
       short-term disruptions (those that last less than 24 hours), such as restoring components
       using alternate equipment or performing some or all of the affected business processes
       using alternate processing (manual) means.
   10. Update the IT environment contingency plan to update contingency planning procedures
       specific to NRC remote locations that are not up-to-date. Specifically, update the list of
       IT environment servers supporting NRC remote locations that are referenced in Appendix


                                                  12
                                                                         Independent Evaluation of
                                                          NRC’s Implementation of FISMA for FY 2012


    H of the IT environment contingency plan and update the contingency plans for NRC
    remote locations that are attached to the IT environment contingency plan.
11. Update the IT environment contingency plan to include contingency procedures for the
    IT environment and other IT components supporting the one NRC remote location for
    which these procedures are missing.
12. Update the COOPs for NRC remote locations that are referenced in Appendix G of the IT
    environment contingency plan to include current IT environment configurations at NRC
    remote locations and to address situations where the IT environment at those locations is
    unavailable for any reason.
13. Develop a COOP for the IT environment and other IT components supporting the one
    NRC remote location that does not have a COOP.




                                           13
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2012




[Page intentionally left blank]




              14
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2012


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Update all procedures, guides, and user manuals that provide guidance for maintaining
        system inventory records within NSICD to clearly define which organization(s) are
        responsible for adding new system inventory records in NSICD.
    2. Update the instructions included with the biannual inventory update to require system
        owners to notify the agency of any new systems that are not reflected in the data call.
    3. Include all systems in NSICD, including all independent standalone hardware that has an
        NSICD system inventory number, in future biannual inventory update data calls.
    4. Assign responsibility for ensuring each NRC remote location maintains a consolidated
        inventory of all the IT system components located in that location, associated rack
        diagrams are kept up-to-date, and the inventory meets NRC requirements.
    5. Create a consolidated inventory that meets NRC requirements of all the IT system
        components located in each NRC remote location.
    6. Update the rack diagrams for each NRC remote location.
    7. Provide refresher training to all staff responsible for implementing NRC’s POA&M
        process.
    8. Configure the agency’s automated POA&M tool to do the following: (i) prevent
        scheduled completion dates from being changed, (ii) prevent weaknesses from being
        created without a scheduled completion date or weakness source, (iii) prevent weaknesses
        from being closed without specifying an actual date closed, (iv) prevent users from
        entering actual completion dates in the future, (v) prevent users from entering an actual
        completion date when the status is not closed, and (vi) automatically change the
        weakness status from on track to delayed once the scheduled completion date has passed.
    9. Update the IT environment contingency plan to include procedures for responding to
        short-term disruptions (those that last less than 24 hours), such as restoring components
        using alternate equipment or performing some or all of the affected business processes
        using alternate processing (manual) means.
    10. Update the IT environment contingency plan to update contingency planning procedures
        specific to NRC remote locations that are not up-to-date. Specifically, update the list of
        IT environment servers supporting NRC remote locations that are referenced in Appendix
        H of the IT environment contingency plan and update the contingency plans for NRC
        remote locations that are attached to the IT environment contingency plan.
    11. Update the IT environment contingency plan to include contingency procedures for the
        IT environment and other IT components supporting the one NRC remote location for
        which these procedures are missing.
    12. Update the COOPs for NRC remote locations that are referenced in Appendix G of the IT
        environment contingency plan to include current IT environment configurations at NRC
        remote locations and to address situations where the IT environment at those locations is
        unavailable for any reason.
    13. Develop a COOP for the IT environment and other IT components supporting the one
        NRC remote location that does not have a COOP.


                                                15
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2012




[Page intentionally left blank]




              16
                                                                            Independent Evaluation of
                                                             NRC’s Implementation of FISMA for FY 2012


5      Agency Comments

At an exit conference on November 1, 2012, agency officials agreed with the report’s findings
and recommendations. Subsequent to the exit conference, the agency provided informal
comments, which the OIG incorporated as appropriate. The agency opted not to submit formal
comments.




                                              17
                                            Independent Evaluation of
                             NRC’s Implementation of FISMA for FY 2012




[Page intentionally left blank]




              18
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2012


Appendix.          OBJECTIVE, SCOPE, AND METHODOLOGY

OBJECTIVE

The objective of this review was to perform an independent evaluation of NRC’s implementation
of FISMA for FY 2012.

SCOPE

The evaluation focused on reviewing the agency’s implementation of FISMA for FY 2012. The
evaluation included an assessment of compliance with FISMA requirements and related
information security policies, procedures, standards, and guidelines, and a review of information
security policies, procedures, and practices of a representative subset of the agency’s information
systems, including contractor systems and systems provided by other Federal agencies. Three
agency systems and one contractor system were selected for evaluation.

The evaluation was conducted at NRC headquarters from May 2012 through September 2012.
Any information received from the agency subsequent to the completion of fieldwork was
incorporated when possible. Throughout the evaluation, evaluators were aware of the potential
for fraud, waste, or misuse in the program.

METHODOLOGY

Richard S. Carson & Associates, Inc., conducted an independent evaluation of NRC’s
implementation of FISMA for FY 2012. In addition to an assessment of compliance with
FISMA requirements and related information security policies, procedures, standards, and
guidelines, the evaluation included an assessment of the following topics specified in OMB’s FY
2012 Inspector General FISMA Reporting Metrics.

        Continuous Monitoring Management.
        Configuration Management.
        Identity and Access Management.
        Incident Response and Reporting.
        Risk Management.
        Security Training.
        Plan of Action and Milestones.
        Remote Access Management.
        Contingency Planning.
        Contractor Systems.
        Security Capital Planning.




                                                19
                                                                              Independent Evaluation of
                                                               NRC’s Implementation of FISMA for FY 2012


To conduct the independent evaluation, the team reviewed the following:

       NRC policies, procedures, and guidance specific to NRC’s IT security program and its
       implementation of FISMA, and to the 11 topics specified in OMB’s reporting metrics.
       Security assessment and authorization documents for the four systems selected for
       evaluation during the FY 2012 independent evaluation, including security test and
       evaluation reports and vulnerability assessment reports prepared in support of security
       test and evaluation.
       Security categorizations, security plans, contingency plans, contingency plan test reports,
       and authorization to operate memoranda for all agency systems.
       Annual security control testing reports for all agency systems.
       Annual security control testing report for the agency’s common controls, as controls such
       as incident response, security training, and security capital planning are partially provided
       at the agency level for all NRC information systems.

When reviewing security test and evaluation and annual security control testing reports, the team
focused on security controls specific to the 11 topics specified in OMB’s reporting metrics.

All analyses were performed in accordance with guidance from the following:

       NIST standards and guidelines.
       Management Directive and Handbook 12.5, NRC Automated Information Security
       Program.
       NRC Computer Security Office policies, processes, procedures, standards, and
       guidelines.
       NRC OIG audit guidance.

The evaluation work was conducted by Jane M. Laroussi, CISSP, and Virgil Isola, CISSP, from
Richard S. Carson & Associates, Inc.




                                                20
